               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-02643-20




   Combined Assessment Program 

           Review of the 

 James H. Quillen VA Medical Center
     Mountain Home, Tennessee 





November 22, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN



                                               Glossary
                 CAP             Combined Assessment Program
                 CLC             community living center
                 CS              controlled substances
                 EHR             electronic health record
                 EOC             environment of care
                 facility        James H. Quillen VA Medical Center
                 FY              fiscal year
                 HPC             hospice and palliative care
                 IC              infection control
                 MH              mental health
                 NA              not applicable
                 NC              noncompliant
                 NCPS            National Center for Patient Safety
                 OIG             Office of Inspector General
                 OR              operating room
                 PCCT            Palliative Care Consult Team
                 PU              pressure ulcer
                 QM              quality management
                 RME             reusable medical equipment
                 SPS             Sterile Processing Service
                 VHA             Veterans Health Administration
                 VISN            Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                   CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             9

  Coordination of Care – HPC ...................................................................................                  11

  PU Prevention and Management ............................................................................                       12

  Nurse Staffing .........................................................................................................        14

  Construction Safety.................................................................................................            15


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 17

  C. VISN Director Comments ..................................................................................                    18

  D. Facility Director Comments ...............................................................................                   19

  E. OIG Contact and Staff Acknowledgments .........................................................                              23

  F. Report Distribution .............................................................................................            24

  G. Endnotes ...........................................................................................................         25





VA OIG Office of Healthcare Inspections
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
September 23, 2013.

Review Results: The review covered seven activities.                            We    made     no
recommendations in the following four activities:

   Coordination of Care – Hospice and Palliative Care

   Pressure Ulcer Prevention and Management

   Nurse Staffing

   Construction Safety

The facility’s reported accomplishments were performance improvement projects, the
Patient Safety Program, and the decrease in the incidence of hospital-acquired
pressure ulcers.

Recommendations: We made recommendations in the following three activities:
Quality Management: Ensure code reviews include screening for clinical issues prior to
non-intensive care unit codes that may have contributed to the occurrence of the
cardiopulmonary event. Consistently scan the results of non-VA purchased diagnostic
tests into electronic health records.

Environment of Care: Correct the identified environmental safety hazards on the locked
mental health unit related to equipment, furniture, and anchor points, and routinely test
all panic alarms on the unit. Ensure that operating room employees who perform
immediate use sterilization receive annual competency assessments.

Medication Management – Controlled Substances Inspections: Consistently reconcile
1 day’s dispensing from the pharmacy to each automated unit, and consistently
complete pharmacy inspections on the same day they were initiated.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided




VA OIG Office of Healthcare Inspections                                                          i
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


acceptable improvement plans. (See Appendixes C and D, pages 18–22, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   PU Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
September 23, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the



VA OIG Office of Healthcare Inspections                                                         1
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the James H. Quillen VA Medical Center, Mountain Home,
Tennessee, Report No. 08-03076-161, July 10, 2009).

During this review, we presented crime awareness briefings for 67 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
470 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Performance Excellence Awards and Activities
The facility received the Secretary of VA Robert W. Carey Performance Excellence
Award and the Tennessee Center for Performance Excellence Achievement Award for
2 consecutive years—2011 and 2012. In FY 2013, staff completed 233 performance
improvement projects. These projects resulted in 20,323 man hours saved and a
projected cost savings of more than $754,790.

Patient Safety Program

The facility’s commitment to patient safety is evident through numerous awards and
activities. The facility’s Patient Safety Program received gold-level recognition from the
NCPS for having a strong root cause analysis process in place for the last 3 years.
After participating in training provided by the NCPS to address safety issues related to
failures in communication in 2012, the facility partnered with the NCPS to become the
first medical center based training facility. In addition, in 2012, the facility scored the
second highest of all medical centers (98 percent) on a national employee safety
perception survey.

Risk Surveillance and Early Prevention of PUs
Establishment of a facility-wide culture of rapid response PU risk surveillance and early
prevention has resulted in marked improvement in the incidence of PUs in all inpatient
and outpatient care areas. In FY 2012, the hospital-acquired PU rate decreased




VA OIG Office of Healthcare Inspections                                                         2
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


98 percent and has remained low at only 0.3 percent.        Accuracy in nursing
documentation of patients’ skin condition has improved from 43 percent to almost
100 percent, and medical provider documentation of patients’ skin condition has
increased from 0 percent to 72 percent.




VA OIG Office of Healthcare Inspections                                                         3
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
 X     The cardiopulmonary resuscitation review          Six months of Special Care Committee meeting
       policy and processes complied with                minutes reviewed:
       requirements for reviews of episodes of care       There was no evidence that code reviews
       where resuscitation was attempted.                   included screening for clinical issues prior to
                                                            non-intensive care unit codes that may have
                                                            contributed to the occurrence of the code.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.



VA OIG Office of Healthcare Inspections                                                                       4
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


 NC            Areas Reviewed (continued)                                    Findings
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in     Twenty five EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                  Thirteen test results were not scanned into
                                                           the EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that Special Care Committee
code reviews include screening for clinical issues prior to non-intensive care unit codes that may
have contributed to the occurrence of the cardiopulmonary event.

2. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.




VA OIG Office of Healthcare Inspections                                                                  5
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the medical/telemetry, medical/surgical/oncology, specialty care, progressive
care, hemodialysis, and locked MH units. We also inspected the emergency department,
chemotherapy clinic, CLC, and SPS area. Additionally, we reviewed relevant documents,
conversed with key employees and managers, and reviewed 25 employee training and
competency files (4 hemodialysis, 11 OR, and 10 SPS). The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
X      Environmental safety requirements were met.       The locked MH unit had the following safety
                                                         hazards:
                                                          In the dining room, two sets of audiovisual
                                                           equipment were unsecured and on top of
                                                           rolling carts.
                                                          The dining room tables and chairs were not
                                                           heavily weighted or secured to the floor, and
                                                           there was no plan to ensure patient safety in
                                                           this area.
                                                          A piano in the dining room had metal pieces
                                                           on the sides that could be used as anchor
                                                           points for self-harm by hanging.
                                                          Routine testing of the portable panic alarms
                                                           was not done.
                                                          The panic alarm located in the nursing station
                                                           had not been tested for the past 6 months.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.


VA OIG Office of Healthcare Inspections                                                                     6
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


 NC          Areas Reviewed for General EOC                                  Findings
                           (continued)
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
X      OR employees who performed immediate use            There was no evidence that any of the 8 OR
       (flash) sterilization received training and          employees on duty for more than 2 years
       competency assessment.                               received annual competency assessments.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.




VA OIG Office of Healthcare Inspections                                                                  7
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


 NC     Areas Reviewed for SPS/RME (continued)                                Findings
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

3. We recommended that the identified environmental safety hazards on the locked MH unit
related to equipment, furniture, and anchor points be corrected and that compliance be
monitored.

4. We recommended that processes be strengthened to ensure that all panic alarms on the
locked MH unit are routinely tested and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that OR employees who
perform immediate use sterilization receive annual competency assessments.




VA OIG Office of Healthcare Inspections                                                                  8
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and any
       identified deficiencies were corrected.
X      Instructions for inspecting automated             Automated dispensing machine inspection
       dispensing machines were documented,              instructions reviewed:
       included all required elements, and were           Although instructions required reconciliation
       followed.                                            of 1 day’s dispensing from the pharmacy to
                                                            each automated unit, this was not completed
                                                            for 2 of 6 months in the 10 selected
                                                            non-pharmacy areas.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
X      Pharmacy CS inspections were conducted in         Documentation of pharmacy CS inspections
       accordance with VHA requirements and              during the past 6 months reviewed:
       included all required elements.                    Pharmacy inspections were not completed on
                                                           the same day they were initiated for 2 of
                                                           12 inspections.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    9
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN



Recommendations

6. We recommended that processes be strengthened to ensure that 1 day’s dispensing from
the pharmacy to each automated unit is consistently reconciled and that compliance be
monitored.

7. We recommended that processes be strengthened to ensure that pharmacy inspections are
consistently completed on the same day they were initiated and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 10
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 21 employee training records (6 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic.    The facility generally met requirements.       We made no
recommendations.

 NC                     Areas Reviewed                                       Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                 11
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


PU Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive PU prevention and management.5

We reviewed relevant documents, 14 EHRs of patients with PUs (4 patients with
hospital-acquired PUs, 7 patients with community-acquired PUs, and 3 patients with PUs at the
time of our onsite visit), and 10 employee training records. Additionally, we inspected three
patient rooms. The table below shows the areas reviewed for this topic. Any items that did not
apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

 NC                     Areas Reviewed                                       Findings
       The facility had a PU prevention policy, and it
       addressed prevention for all inpatient areas
       and for outpatient care.
       The facility had an interprofessional PU
       committee, and the membership included a
       certified wound care specialist.
       PU data was analyzed and reported to facility
       executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for PUs and
       for patients with PUs.
 NA    Required activities were performed for
       patients determined to not be at risk for PUs.
       For patients at risk for and with PUs,
       interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s PU was not healed at
       discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
       The facility defined requirements for patient
       and caregiver PU education, and education on
       PU prevention and development was provided
       to those at risk for and with PUs and/or their
       caregivers.




VA OIG Office of Healthcare Inspections                                                                 12
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


 NC             Areas Reviewed (continued)                                   Findings
       The facility defined requirements for staff PU
       education, and acute care staff received
       training on how to administer the PU risk
       scale, conduct the complete skin assessment,
       and accurately document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in PU patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 13
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).6

We reviewed relevant documents and 23 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit C1, CLC unit CLC1, and MH unit E1 for 52 randomly selected days (holidays, weekdays,
and weekend days) between October 1, 2012, and March 31, 2013. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                        Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 14
                                    CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


Construction Safety
The purpose of this review was to determine whether the facility maintained IC and safety
precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected renovation projects for the CLC and primary care areas. Additionally, we
reviewed relevant documents and 32 training records (21 contractor records and 11 employee
records), and we conversed with key employees and managers. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                        Findings
       There was a multidisciplinary committee to
       oversee IC and safety precautions during
       construction and renovation activities and a
       policy outlining the responsibilities of the
       committee, and the committee included all
       required members.
       IC, preconstruction, interim life safety, and
       contractor tuberculosis risk assessments were
       conducted prior to project initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       IC Committee minutes documented infection
       surveillance activities associated with the
       project and any interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                 15
                                CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN
                                                                                            Appendix A


          Facility Profile (Mountain Home/621) FY 2013 through
                               August 2013a
Type of Organization                                                       Secondary
Complexity Level                                                           1c-High complexity
Affiliated/Non-Affiliated                                                  Affiliated
Total Medical Care Budget in Millions                                      $366.5
Number (through September 2013) of:
    Unique Patients                                                       51,569
    Outpatient Visits                                                     569,269
    Unique Employeesb                                                     1,811
Type and Number of Operating Beds:
    Hospital                                                              114
    CLC                                                                   120
    MH                                                                    170
Average Daily Census:
    Hospital                                                              78
    CLC                                                                   62
    MH                                                                    109
Number of Community Based Outpatient Clinics                               7
Location(s)/Station Number(s)                                              Knoxville/621BY
                                                                           Rogersville/621GA
                                                                           Norton/621GC
                                                                           St. Charles/621GD
                                                                           Morristown/621GG
                                                                           Sevierville/621GI
                                                                           Bristol/621GJ
VISN Number                                                                9




a
    All data is for FY 2013 through August 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                             16
                                 CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN
                                                                                             Appendix B


                            VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                    Inpatient Scores                                   Outpatient Scores
                   FY 2012     FY 2013                                     FY 2012
                  Inpatient        Inpatient       Outpatient        Outpatient        Outpatient       Outpatient
                  Score            Score           Score             Score             Score            Score
                  Quarters 3–4     Quarters 1–2    Quarter 1         Quarter 2         Quarter 3        Quarter 4
    Facility      72.0             81.3            60.8              54.5              59.3             56.7
    VISN          65.1             64.5            54.7              54.1              55.8             55.2
    VHA           65.0             65.5            55.0              54.7              54.3             55.0



                         Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2009, and June 30, 2012.d

Table 2

                                   Mortality                                      Readmission
                Heart Attack      Heart           Pneumonia      Heart Attack      Heart            Pneumonia
                                  Failure                                          Failure
    Facility    14.3              9.9             9.6            *                 *                *
    U.S.
    National    15.5              11.6            12.0           19.7              24.7             18.5
    * No data is available from the facility for this measure.




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                              17
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN
                                                                                       Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           November 8, 2013

       From:           Director, VA Mid South Healthcare Network (10N9)

       Subject:        CAP Review of the James H. Quillen VA Medical Center,
                       Mountain Home, TN

       To:             Director, Bay Pines Office of Healthcare Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations of this Office of
          Inspector General Combined Assessment Program Review of the
          James H. Quillen VA Medical Center, Mountain Home, Tennessee, as
          well as the action plan developed by the facility.

       2. If you have any questions or need additional information from the
          Network, please do not hesitate to contact Joe Schoeck, Staff
          Assistant to the Network Director, at 615-695-2205 or me at
          615-695-2206.


           (original signed by:)
           John E. Patrick




VA OIG Office of Healthcare Inspections                                                        18
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           November 6, 2013

       From:           Director, James H. Quillen VA Medical Center (621/00)

       Subject:        CAP Review of the James H. Quillen VA Medical Center,
                       Mountain Home, TN

       To:             Director, VA Mid South Healthcare Network (10N9)

       1. On behalf of the James H. Quillen VA Medical Center, Mountain
          Home, Tennessee, I concur with the findings and recommendations of
          this Office of Inspector General report. We had already been actively
          working to improve or enhance several of these areas and welcome
          the “fresh eyes” perspective provided by this report.

       2. Included herein is an outline of	 improvement actions taken, in
          progress, or planned in response to these findings. We believe these
          changes will further enhance key systems and processes at our
          medical center.




           Charlene S. Ehret, FACHE




VA OIG Office of Healthcare Inspections                                                        19
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
Special Care Committee code reviews include screening for clinical issues prior to
non-intensive care unit codes that may have contributed to the occurrence of the
cardiopulmonary event.

Concur

Target date for completion: January 1, 2014

Facility response: The Special Care Committee added the screening for clinical issues
prior to non-intensive care unit codes that may contribute to the occurrence of the
cardiopulmonary event to the minute template. The minute template is addressed at
each Special Care Committee meeting. The Chief, Quality Management will perform a
quality audit of all Special Care Committee minutes and report to the Quality Executive
Board to ensure 100 percent compliance for six months.

Recommendation 2. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: January 1, 2014

Facility response: The process of scanning non-VA purchased diagnostic test results
performed on Veterans was immediately reviewed and an additional scanner was
obtained to ensure documentation is moved into the computerized patient record
system. The Chief of Business Office is performing monthly quality audits to ensure
95 percent compliance is maintained. Thirty randomly selected NVCC claims will be
viewed monthly. The September and October audit results were 100 percent compliant
with clinical documentation scanned into NVCC package and EHR.

Recommendation 3. We recommended that the identified environmental safety
hazards on the locked MH unit related to equipment, furniture, and anchor points be
corrected and that compliance be monitored.

Concur

Target date for completion: January 1, 2014




VA OIG Office of Healthcare Inspections                                                        20
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


Facility response: (1). Two sets of audiovisual equipment were removed and two new
televisions which will be secured have been ordered. (2). The metal pieces on the
piano were removed and replaced with rolling castors. (3). A policy was written on the
Management of Veterans in the Dining/Activities Hall. This policy was shared with staff
to ensure the dining hall is never left unsecured. The Nurse Manager will complete a
monthly quality audit to ensure 100 percent compliance with the security of the dining
room.

Recommendation 4. We recommended that processes be strengthened to ensure that
all panic alarms on the locked MH unit are tested and that compliance be monitored.

Concur

Target date for completion: November 1, 2013

Facility response:

(1).The routine testing of the portable panic alarms are tested monthly. A Nurse Call
System Badge Locators log was created. The Nurse Manager is completing a monthly
quality audit to ensure 100 percent compliance with testing of portable panic alarms.

(2). The panic alarm located at the nursing station was placed on the VA Police duress
alarm testing list and is being tested monthly. The Nurse Manager receives a copy of
the monthly test and will perform a monthly quality audit to ensure 100 percent
compliance.

Recommendation 5. We recommended that processes be strengthened to ensure that
OR employees who perform immediate use sterilization receive annual competency
assessments.

Concur

Target date for completion: October 7, 2013

Facility response: Twenty two OR employees (100 percent) who would perform
immediate use sterilization received annual competency assessments on that specific
process. The OR Manager placed this annual competency assessment on the
scheduled annual competency plan to ensure completion each year.

Recommendation 6. We recommended that processes be strengthened to ensure that
1 day’s dispensing from the pharmacy to each automated unit is consistently reconciled
and that compliance be monitored.

Concur

Target date for completion: January 1, 2014




VA OIG Office of Healthcare Inspections                                                        21
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN


Facility response: The Controlled Substance Coordinator revised the inspection report
form to clearly separate inside and outside vault (Pharmacy). All controlled substance
inspectors were educated on the requirement to ensure that one day’s dispensing from
the pharmacy to each automated unit is consistently reconciled. A monthly monitoring
tool was developed to track completion with one hundred percent of inspections. The
October audit results were 100 percent compliant.

Recommendation 7. We recommended that processes be strengthened to ensure that
pharmacy inspections are consistently completed on the same day they were initiated
and that compliance be monitored.

Concur

Target date for completion: January 1, 2014

Facility response: The Controlled Substance Coordinator (CSC) re-educated all
controlled substance inspectors that each inspection area must be completed on the
day it is initiated. The CSC is responsible for reviewing all controlled substance
monitoring reports to ensue controlled substance pharmacy inspections are consistently
completed on the same day. A monthly monitoring tool was developed to ensure that
one hundred percent of inspections are completed timely. The October audit results
were 100 percent compliant.




VA OIG Office of Healthcare Inspections                                                        22
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Alice Morales-Rullan, MSN, RN, Team Leader
Contributors            Brian Celatka
                        Charles H. Cook, MHA
                        David Griffith, RN
                        Karen McGoff-Yost, MSW, LCSW
                        Carol Torczon, MSN, ACNP
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Darlene Conde-Nadeau, MSN, ARNP
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        23
                           CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Mid South Healthcare Network (10N9)
Director, James H. Quillen VA Medical Center (621/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lamar Alexander, Bob Corker, Tim Kaine, Mark R. Warner
U.S. House of Representatives: Scott DesJarlais; John J. Duncan, Jr.;
 Chuck Fleischmann; Morgan Griffith; Phil Roe


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        24
                                 CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN
                                                                                             Appendix G

                                                Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA NCPS, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA NCPS, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
    Healthcare Central Service Materiel Management, and the Association for Professionals in IC and Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       25
                                 CAP Review of the James H. Quillen VA Medical Center, Mountain Home, TN



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National PU Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        26
